0.1=M1111••••

No. 20-6547
S.Ct
; 2021 WL 666565
2021 LEXIS 878

IN THE
SUPREME COURT OF THE UNITED STATES

DAVID FRANKLIN MCNEES, Jr. -- Petitioner
vs.
MICHIGAN --'Respondent
CERTIFICATE OF SERVICE
I, do hereby deiclare under penalty of perjury that I did serve one true copy of
Petitioner's Motion for Rehearing on the opposing party at:
Michigan Attorney General
P.O. Box 30212
Lansing, Michigan 48909
I did so by placing the same in a prepaid properly addressed envelope and handing it
Michigan Department of Corrections staff for mailing in the United. States Postal
Service via the expidited legal mail program here . the facility.
David McNees
Dated: March 8 2021

